HHS/OIG, Audit -"State of Michigan's Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Program Funds,"(A-05-03-00079)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Michigan's Efforts to Account for and Monitor Sub-Recipients' Use
of Bioterrorism Hospital Preparedness Program Funds," (A-05-03-00079)
October 7, 2003
Complete Text of Report is
available in PDF format (141 kb). Copies can also be obtained by contacting the
Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives
were to determine whether the Michigan Department of Community Health (State
agency): (i) properly recorded, summarized and reported bioterrorism
preparedness transactions in accordance with the terms and conditions of the
cooperative agreements and (ii) had controls and procedures to monitor
sub-recipient expenditures of HRSA funds.  We determined
that the State agency generally accounted for program funds in accordance with
the terms and conditions of the cooperative agreement. However, the State agency
did not segregate expenditures by phase, within phase, or by priority area.
State officials indicated that they were establishing procedures to comply
with the requirements in the new HRSA Cooperative Agreement Guidance, effective
August 31, 2003. We also found the State agency had controls and procedures to
monitor sub-recipient expenditures of Program funds.  We recommended the
State agency implement procedures to comply with the new requirements effective
August 31, 2003 and begin tracking expenditures by priority area, critical
benchmark, and by funds allocated to hospitals and other health care entities.
The State agency concurred with our findings and recommendations.